<html>
<title> - STATUS OF THE DISTRICT OF COLUMBIA'S YEAR 2000 CONVERSION COMPLIANCE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
  STATUS OF THE DISTRICT OF COLUMBIA'S YEAR 2000 CONVERSION COMPLIANCE

=======================================================================

                                HEARING

                               before the

                          SUBCOMMITTEE ON THE
                          DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 19, 1999

                               __________

                           Serial No. 106-22

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
58-191 CC                    WASHINGTON : 1999



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                GARY A. CONDIT, California
THOMAS M. DAVIS, Virginia            PATSY T. MINK, Hawaii
DAVID M. McINTOSH, Indiana           CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELEANOR HOLMES NORTON, Washington, 
JOE SCARBOROUGH, Florida                 DC
STEVEN C. LaTOURETTE, Ohio           CHAKA FATTAH, Pennsylvania
MARSHALL ``MARK'' SANFORD, South     ELIJAH E. CUMMINGS, Maryland
    Carolina                         DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
ASA HUTCHINSON, Arkansas             JOHN F. TIERNEY, Massachusetts
LEE TERRY, Nebraska                  JIM TURNER, Texas
JUDY BIGGERT, Illinois               THOMAS H. ALLEN, Maine
GREG WALDEN, Oregon                  HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                  THOMAS M. DAVIS, Virginia, Chairman
CONSTANCE A. MORELLA, Maryland       ELEANOR HOLMES NORTON, Washington, 
STEPHEN HORN, California                 DC
JOE SCARBOROUGH, Florida             CAROLYN B. MALONEY, New York
                                     EDOLPHUS TOWNS, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                       Peter Sirh, Staff Director
                   Bob Dix, Professional Staff Member
                  Anne Mack, Professional Staff Member
                           Ellen Brown, Clerk
                      Jon Bouker, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 19, 1999................................     1
Statement of:
    Williams, Anthony, Mayor, District of Columbia; Kathleen 
      Patterson, council (ward 3), District of Columbia City 
      Council; John Hill, executive director, Financial 
      Responsibility & Management Assistance Authority; Suzanne 
      Peck, chief technology officer, District of Columbia; and 
      Jack Brock, Director, Information Management Issues, 
      Accounting & Information Management Division, U.S. General 
      Accounting Office..........................................    10
Letters, statements, etc., submitted for the record by:
    Brock, Jack, Director, Information Management Issues, 
      Accounting & Information Management Division, U.S. General 
      Accounting Office, prepared statement of...................    49
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Hill, John, executive director, Financial Responsibility & 
      Management Assistance Authority, prepared statement of.....    27
    Norton, Eleanor Holmes, a Representative in Congress from the 
      District of Columbia, prepared statement of................     8
    Patterson, Kathleen, council (ward 3), District of Columbia 
      City Council, prepared statement of........................    19
    Peck, Suzanne, chief technology officer, District of 
      Columbia, prepared statement of............................    36
    Williams, Anthony, Mayor, District of Columbia, prepared 
      statement of...............................................    13


  STATUS OF THE DISTRICT OF COLUMBIA'S YEAR 2000 CONVERSION COMPLIANCE

                              ----------                              


                       FRIDAY, FEBRUARY 19, 1999

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Thomas M. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis and Norton.
    Staff present: Peter Sirh, staff director; Howard Denis, 
counsel; Bob Dix and Anne Mack, professional staff members; 
Ellen Brown, clerk; Trey Hardin, communications director; Jon 
Bouker, minority counsel; and Ellen Rayner, minority chief 
clerk.
    Mr. Davis. Good morning. I apologize for being here a 
couple minutes late.
    The year 2000 conversion has begun to appear on the radar 
screen of policymakers as a very high-priority concern. This is 
an enormous challenge for the District of Columbia, along with 
the rest of the Nation and the world. I am going to be 
introducing bipartisan legislation very shortly that will 
address some of the key issues that affect the country as a 
whole, but our hearing today will address matter of particular 
concern to the Nation's capital.
    My thanks to the ranking member of this subcommittee 
Eleanor Holmes Norton for her continuing leadership on these 
issues in the District of Columbia. I also want to thank 
Congresswoman Connie Morella, vice chair of this subcommittee, 
and another distinguished member of the subcommittee Steve 
Horn, who are national leaders on the year 2000 compliance 
matters.
    The year 2000 compliance is at heart a unique management 
issue for both the public and the private sectors. The 
necessity to address this matter has been as obvious as the 
calendar itself. Apparently it was believed that affected 
systems and devices would be replaced with new technology in 
advance of the inexorable deadline of December 31, 1999. This 
is a classic case of too many people assuming that somebody 
else would solve the problem.
    Simply put, many computers and other electronic devices 
which contain embedded chips are programmed to use only two 
digits to represent the calendar year. As a result, many 
computer systems will not be able to distinguish between the 
year 2000 and the year 1900. Moreover, microprocessors also 
have been reprogrammed with the same two-digit year and are 
therefore subject to the same failure potential.
    Our attention is drawn in a special way to the challenges 
which confront the District. The regional compacts which exist 
among various governmental entities require us to examine these 
matters in a comprehensive manner. The Water and Sewer 
Authority and WMATA are only two of the entities with regional 
cooperative agreements. Many Health and Human Service functions 
are also involved. Clearly, transportation and public safety 
concerns are critical.
    On October 2, 1998, this subcommittee conducted a joint 
oversight hearing on the District's year 2000 compliance 
effort. Among other things, we learned that local compliance 
efforts could not begin in a meaningful way until June of last 
year. That fact in and of itself alerted us to the emergency 
which still confronts the District. It was clear that the city 
would have to proceed simultaneously with remediation and 
testing.
    Citizens should be aware that this could have an impact on 
the ability of the District to provide uninterrupted services, 
as well as hinder Federal workers in their regular commute.
    The subcommittee is working closely with the District's 
Chief Technology Officer and others to help the city address 
these challenges. Working together, much progress has been 
made, but much remains to be done. The District remains in a 
crisis mode, and the need to remove obstacles must continue to 
be relentless.
    On January 28, 1999, the District's inspector general, E. 
Barrett Prettyman, Jr., issued a management alert letter on the 
District's year 2000 readiness status. The letter reassures us 
that milestone dates related to the Metropolitan Police 
Department, employment service and Chief Financial Officer have 
been met, but many issues still remain.
    I look forward to hearing from our distinguished panel, and 
I would now yield to Delegate Norton, the ranking member of the 
subcommittee, for an opening statement.
    [The prepared statement of Hon. Thomas M. Davis follows:]

    [GRAPHIC] [TIFF OMITTED]58191.001
    
    [GRAPHIC] [TIFF OMITTED]58191.002
    
    [GRAPHIC] [TIFF OMITTED]58191.003
    
    Ms. Norton. Thank you, Mr. Chairman. I want to thank 
Chairman Tom Davis for this second oversight hearing on the 
District's continuing effort to meet its Y2K compliance 
obligation.
    The chairman's interest in Y2K is well placed, considering 
the large challenge the District faces to achieve compliance. I 
will be making an important announcement later on in my 
statement that offers one important indication that this matter 
is by no means beyond the District's reach.
    In addition, this hearing does not signal neglect on the 
District's part. The D.C. City Council Committee on Government 
Operations, ably chaired by Council Member Kathy Patterson, has 
held two oversight hearings focusing exclusively on Y2K, and 
Y2K was highlighted in the Council's own budget and performance 
hearings for the Office of Chief Technology Officer and in the 
management reform hearings. Moreover, city officials, though 
too late in starting, have made a valiant effort to catch up 
and prepare for contingencies.
    At the subcommittee's last oversight hearing on Y2K on 
October 7, we were assured that the District government 
understood the seriousness of the problem, was willing to take 
risks to ensure that the work was completed on time, had hired 
a new and experienced chief technology officer, and had 
contracted with IBM, a nationally recognized Y2K expert, to 
perform assessment, remediation and testing of the District's 
computer systems.
    I am pleased that since the last hearing, the District is 
implementing the specific recommendations of the GAO, including 
identifying the city's mission-critical operations and systems, 
determining which systems must be remediated before the year 
2000, and developing contingency plans for the systems where 
work will not be completed on time.
    However, like most cities, counties and States across the 
Nation, the District is still behind schedule and has cause for 
concern. Congressman Steve Horn, Chair of the Government 
Management, Information, and Technology Subcommittee and a 
member of the subcommittee, in hearings in cities across the 
country found that State and local governments have gotten a 
particularly late start, and that even the Federal Government 
is behind in ensuring that the mission-critical computer 
systems are Y2K-compliant.
    Important example: A 1998 survey of the National 
Association of State Information Resource Executives found that 
only 18 States had completed determinations of which computers 
needed to be fixed. The same organization also found that all 
50 States, all of them, indicated that they will not be able to 
renovate all their systems on time and are focusing only on 
their mission-critical systems.
    A 1997 survey of U.S. city governments reported that more 
than half did not even realize that their computers could be 
affected by the Y2K problem. This factual background help put 
the District's Y2K problems in perspective; however, 
perspective alone does not relieve the inevitable anxiety.
    District officials are now focusing on the bottom line of 
service functions where disruption cannot and will not be 
tolerated by city residents. Among them are paying District 
employees; D.C. General Hospital, fire, police and emergency 
medical services; the 911 service; water and sewer operations; 
distributing welfare checks; tax collection; corrections; and 
the lottery.
    The goal of no disruption will require more rapid 
assessment and remediation, contingency planning, and ample 
resources. The resources to address the District's Y2K problem 
cannot and should not be borne by the District alone. For many 
months I have been working with the White House to obtain extra 
funding for the District's Y2K effort. I very much appreciate 
that the President put language in last year's omnibus budget 
package allowing the District to receive a portion of the $2.25 
billion earmarked in 1999 for Y2K remediation in the Federal 
Government.
    The District is the only city to receive these funds, and 
rightly so. The President has included funds for the District 
because it is in the best interests of the government. The 
District is functionally the seat of the Federal Government. In 
order to ensure continuity of operations, it was necessary to 
include the District in the Federal Government's Y2K planning.
    I am pleased to report this morning that the White House 
has assured me that approximately $63 million will come to the 
District within the next 2 weeks, with the possibility of more 
funding later. I also appreciate that the administration, the 
Clinton administration, is working closely with the District's 
chief technology officer and chief financial officer in 
planning for and documentation of the appropriate use of these 
funds.
    It is very easy, it is a very cheap shot to sensationalize 
the Y2K problems that cities such as the District face. We must 
take care not to needlessly alarm city residents about what may 
happen at the drop-dead date.
    This is not funny, and it is going to be taken care of. It 
is going to take responsible action by the city, but it is 
going to take responsible action by the media and by all 
concerned so that citizens have this matter in perspective.
    Residents must be assured not that the system will be 
perfect by the drop-dead date, and that is how almost all of 
the reporting looks at this matter. Will it all be done? It 
will not all be done by the Federal Government, by the District 
government or apparently by any State or local government in 
the United States. That is not the question. The question is 
whether there is a realistic time line for achieving full 
compliance, and whether in the interim residents will 
experience no disruption in their lives in this city. That, and 
that alone, is what this committee and city residents have a 
right to demand.
    I very much thank the chairman for his justifiable 
continuing attention to this matter and the city for the 
priority it is giving to Y2K. I am especially pleased to 
welcome today's witness.
    Thank you, Mr. Chairman.
    Mr. Davis. Thank you, Ms. Norton.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED]58191.004

[GRAPHIC] [TIFF OMITTED]58191.005

    Mr. Davis. I am going to now call on our panel of witnesses 
to testify: Mayor Anthony Williams, Council Member Kathleen 
Patterson, Control Board Executive Director John Hill, Chief 
Technology Officer Suzanne Peck, and Mr. Jack Brock, a Director 
at the GAO.
    As you know, it is the policy of this committee that all 
members be sworn before they can testify. If you would rise 
with me and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis. Thank you very much. You can be seated.
    I would ask unanimous consent any written statements be 
made part of the permanent record. In the interest of time and 
to afford sufficient opportunity for questions and answers, I 
would ask that the witnesses limit themselves to an opening 
statement of no more than 5 minutes.
    We will begin with Mayor Williams, to be followed by 
Council Member Patterson, Control Board Executive Director 
Hill, the Chief Technology Officer Suzanne Peck, and then Jack 
Brock, you be the cleanup, the guy with the GAO.
    Mayor Williams, thank you.

 STATEMENTS OF ANTHONY WILLIAMS, MAYOR, DISTRICT OF COLUMBIA; 
KATHLEEN PATTERSON, COUNCIL (WARD 3), DISTRICT OF COLUMBIA CITY 
       COUNCIL; JOHN HILL, EXECUTIVE DIRECTOR, FINANCIAL 
RESPONSIBILITY & MANAGEMENT ASSISTANCE AUTHORITY; SUZANNE PECK, 
CHIEF TECHNOLOGY OFFICER, DISTRICT OF COLUMBIA; AND JACK BROCK, 
     DIRECTOR, INFORMATION MANAGEMENT ISSUES, ACCOUNTING & 
INFORMATION MANAGEMENT DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Mayor Williams. Mr. Chairman and Congresswoman Norton, 
thank you for the opportunity to be here today and testify on 
the Y2K problem. I am going to just read a few of my remarks, 
and the rest will be submitted for the record, and I thank you 
for that opportunity.
    I want to begin by saying that we acknowledge that the 
District by any general performance standard measurement is 
behind every comparable municipality in the Y2K compliance. 
Most like-size municipalities are more advanced than we, but I 
want to state emphatically that this late start will not 
prevent us from a successful completion of the Y2K project. 
Yes, we started late, and we are still behind where we want to 
be, but we are working on an aggressive and accelerated rate so 
that we will finish within the prescribed time.
    The District's strategy has been to concurrently execute 
tasks that other cities executed sequentially. This strategy 
has to date proven successful with the tracking we have done 
over the past 8 months, and in my mind shall. There is no 
reason why, with the tracking that we have in place at this 
time, that we will not remain on schedule for the duration of 
the project.
    I was elected to fix the District's bureaucracy, and we are 
in the time-consuming process of doing so. However, there are 
certain governmental functions that are so critical that I have 
directed my office to not wait until the overall rebuilding 
process has been completed. Y2K is one of these functions.
    For these critical functions and initiatives, we are 
establishing emergency measures that bypass traditional and 
often cumbersome procedures. To accomplish this bypass, I am 
taking a hands-on ap- proach. From an operational perspective, 
the chief technology offi- cer reports directly to me, and I 
pledge a personal focus on this project.
    In addition, I chair the Y2K Executive Committee, which in- 
cludes Connie Newman of the Control Board; Councilwoman Kathy 
Patterson, who will be testifying later; Chief Financial 
Officer Earl Cabbel; Suzanne Peck, our District's chief 
technology officer; Police Chief Charles Ramsey; and 
Superintendent of Schools Arlene Ack- erman. This group will 
take all the necessary measures to guaran- tee that every 
component of our District's government gives this project the 
undivided attention it deserves.
    I want to also add, furthermore, that this committee will 
under- take whatever contingency backup plans are necessary 
should there be a risk in the system implementation.
    Through this committee I intend to put in place a mechanism 
that will allow for a coordinated and streamlined effort on the 
budget process. In addition, I pledge the necessary resources 
will be available to ensure that vital services are not 
interrupted.
    Just a moment on where we are on Y2K. Later in this hearing 
Suzanne Peck will go into greater detail on the individual 
elements of the Y2K remediation plan, how her office is 
interacting with the 68 executive branch agencies that we have 
identified, as well as the other specific questions you might 
have on the Y2K project. How- ever, I want to give a brief 
overview of where we are today.
    Of the 336 business applications that exist in our system's 
inven- tory, 84 are Y2K-ready, 117 require remediation and 
testing, and 135 have been remediated by their agencies and 
require testing only. The current schedule provides for full 
application remediation and testing to be completed with 
applications returned to produc- tion by the end of November 
1999. Again, Suzanne will give you a more precise breakdown on 
that schedule.
    Some of the landmarks for success of Y2K: Looking forward, 
there are benchmarks that we can monitor that will allow us to 
track our progress to a successful resolution of this Y2K 
program. One, our contractor schedules are completed in a 
timely manner; two, senior management dedicate the resources to 
the schedules; three, contingency plans are devised by the 
agencies; and, four, the District government creates and 
transacts a meaningful public service campaign that heightens 
citizen participation and aware- ness.
    I want to add that we have submitted to the Council 
legislation that will strengthen the role of the CTO in the Y2K 
project, legisla- tion that would exempt her on an emergency 
basis from the normal District procurement rules that we 
believe obstruct her realization of the critical path necessary 
to get this project under way, and we will be working, we hope, 
with the Congress to see that this project is exempted from the 
requirements under the Control Act that pro- curements above $1 
million be approved and reviewed by the Coun- cil.
    Having said that, we will have what we call independent 
verifica- tion and validation in place to see that this project 
is handled in a responsible manner. As always, as I anticipate, 
it will be reviewed and audited by the GAO, as well as our 
inspector general and private firms.
    With that, I would like to conclude my testimony, and I 
would be happy to answer any questions that you may have.
    Mr. Davis. Thank you very much.
    [The prepared statement of Mayor Williams follows:]

    [GRAPHIC] [TIFF OMITTED]58191.006
    
    [GRAPHIC] [TIFF OMITTED]58191.007
    
    [GRAPHIC] [TIFF OMITTED]58191.008
    
    [GRAPHIC] [TIFF OMITTED]58191.009
    
    Mr. Davis. Kathy.
    Ms. Patterson. Good morning. Good morning, Mr. Chairman, 
Mrs. Norton and members of the subcommittee staff.
    I am Kathy Patterson, the ward 3 representative on the 
Council and chairperson of our Committee on Government 
Operations, which has oversight responsibility for information 
technology.
    As noted, after a slow initial start, the District has 
mobilized resources and launched an aggressive program to meet 
the Y2K challenge. That conversion is clearly our top priority 
in information technology, and we need to do everything in our 
power to ensure that vital services are not disrupted before, 
during or after the turn of the century.
    I see three roles for the legislature in promoting a 
successful Y2K conversion. First, the Council and the 
committees must maintain comprehensive oversight of the Y2K 
process. We need to monitor each stage, assessment, 
remediation, testing, implementation and contingency planning, 
to ensure that sufficient resources, human and financial, are 
available; to ensure that deadlines are met; and to ensure that 
District agencies work together and with our counterparts in 
the Federal Government and the private sector.
    Second, the Council in the oversight of the fiscal year 
1999 and 2000 budget must help ensure sufficient resources.
    Third is the legislature's specific policymaking role and 
use of our lawmaking power as necessary to aid in the 
conversion.
    I would now like to share with you briefly the activities 
of the Committee on Government Operations and the Council as a 
whole in supporting the conversion and what I see as our future 
role.
    One important contribution we made over the last year is to 
highlight the views of independent experts concerned that the 
District was at considerable risk of Y2K failures and using 
that information to prompt corrective action. In a December 
1997 letter on the District's fiscal year 1998 comprehensive 
financial audit, KPMG Peat Marwick warned that the District was 
in danger of experiencing a catastrophic failure of its 
electronic data processing systems and needed to proceed 
expeditiously toward addressing these problems.
    Similarly, the Office of the Inspector General concluded in 
a January 1998 report that the District's year 2000 plans and 
strategy had not been determined, that District agencies had 
insufficient knowledge and understanding of the problem, and 
that centralized management and executive level leadership of 
the Y2K conversion was needed.
    The committee invited representatives of the audit firm and 
the inspector general to testify on these findings and to help 
set out for policymakers the seriousness of the Y2K problem. 
That testimony last year helped lead to the centralization of 
the Y2K program under the chief technology officer in June 1998 
and the creation of a Districtwide strategy for assessment and 
remediation.
    I am pleased to report that the D.C. inspector general has 
taken on the important role as an independent monitor and 
consultant on the Y2K process, working closely with the chief 
technology officer and showing the kind of intergovernmental 
cooperation that is essential.
    The committee that I chair, working with other Council 
committees, will continue our oversight of this process 
throughout this calendar year. This past Tuesday my committee 
and the Committee on Human Services held a joint public hearing 
on the Y2K conversion and the District's social welfare 
programs, focusing on unemployment compensation, disability and 
workers' compensation, TANF, Medicaid, food stamps, child care 
programs and D.C. General Hospital.
    We learned, for example, that District agencies have 
successfully passed at least two early fail dates related to 
recordkeeping for unemployment insurance and Medicaid. We also 
learned that the Health and Hospitals Public Benefit Corp. is 
in need of close monitoring by the chief technology officer, 
and my colleague, Council Member Allen, will continue to raise 
important questions in her committee's ongoing oversight of the 
PBC.
    In coming months, we will schedule hearings on Y2K 
conversion and public safety, on Y2K conversion and public-
private partnerships encompassing public utilities and 
transportation, and on our contingency planning. These hearings 
also fulfill an important function in addition to the 
oversight. They give us an opportunity to share with District 
residents the progress we are making and the difficulties that 
we face.
    We have also used our lawmaking powers to support a 
successful Y2K conversion. In the spring of 1998, the Committee 
on Government Operations drafted a reorganization plan formally 
establishing the Office of the Chief Technology Officer. That 
reorganization took effect, and the office was formally 
established last September.
    In December, the Council approved legislation to protect 
taxpayers from paying twice for Y2K conversion. The Year 2000 
Government Computer Immunity Act of 1998 includes provisions to 
immunize the District government against any lawsuit or 
administrative action arising from a year 2000 system failure. 
It requires all District government contractors to include a 
warranty for the year 2000 compliance of all goods and services 
provided. That legislation is now before the Congress for the 
30-day review, and we expect it to become law next month. This 
will make us the fourth jurisdiction in the Nation to adopt 
immunity legislation, following Georgia, Nevada and Virginia.
    As we move forward, it is necessary that everyone in our 
government and our Federal and congressional partners as well 
understand how critical this issue is and that we work in 
partnership to sustain the forward movement. It is important, 
for example, that the chief technology officer on behalf of the 
Mayor have authority commensurate with her responsibility, and 
Mayor Williams touched on this issue.
    In closing, I would like to reiterate the Council's 
commitment to continue to monitor the conversion, to clear away 
any statutory obstacles, and promote cooperation as discussed 
earlier.
    Thank you very much. I would be pleased to answer 
questions.
    Mr. Davis. Thank you.
    [The prepared statement of Ms. Patterson follows:]

    [GRAPHIC] [TIFF OMITTED]58191.010
    
    [GRAPHIC] [TIFF OMITTED]58191.011
    
    [GRAPHIC] [TIFF OMITTED]58191.012
    
    [GRAPHIC] [TIFF OMITTED]58191.013
    
    [GRAPHIC] [TIFF OMITTED]58191.014
    
    [GRAPHIC] [TIFF OMITTED]58191.015
    
    Mr. Davis. Mr. Hill.
    Mr. Hill. Mr. Chairman and Congresswoman Norton, good 
morning, and thank you for the opportunity to discuss the 
impact of Y2K computer issues on the District of Columbia.
    I am representing the vice chair, Constance Newman, who is 
responsible for overseeing information technology issues for 
the Authority. Mrs. Newman is out of the country.
    This is a vitally important topic, both here in the 
Nation's capital and around the country, and the committee is 
to be commended for its leadership role in ensuring that 
technology systems on which our society increasingly depends 
respond effectively throughout this critical time.
    Mr. Chairman, the District of Columbia Financial 
Responsibility and Management Assistance Authority recognizes 
that the successful elimination of Y2K computer problems are of 
great importance to the District's ability to provide effective 
public services during this passage to the millennium. The 
District, like other public and private organizations 
everywhere, faces the challenges of simultaneously changing 
outdated computer systems and providing seamless services to 
its customers. Unlike most other public and private 
organizations, the District is off to a very late start.
    While there are many issues at the core of the Y2K 
challenge, the Authority agrees that the most appropriate focus 
is on those public services in the District which are 
absolutely critical to the mission of our government.
    The Authority in recent months has taken several important 
steps to facilitate progress on the District's Y2K concerns. 
Working with the Office of the Chief Management Officer and now 
the Mayor and the Council, the District hired a chief 
technology officer and established an organizational structure 
to consolidate the government's technology implementation 
project and leverage Y2K progress.
    The District is privileged to have Suzanne Peck, a 
technology expert with more than 20 years experience in 
technology management and development and computer crisis 
management, as its chief technology officer. Ms. Peck has been 
the chief information officer for the Student Loan Marketing 
Association, the vice president for technology operations of 
systems and technology at Computer Technology Corp., and the 
chief executive officer of a startup subsidiary for Corestates 
Financial Corp. The Authority and the Mayor look to Ms. Peck to 
lead the District's Y2K remediation program and to upgrade the 
city's technology infrastructure in order to improve service 
delivery.
    In October 1998, the Authority sent a letter to all 
District agencies which stated,

    The Office of the Chief Technology Officer in conjunction 
with the Office of the Inspector General is authorized to 
control, monitor and provide oversight for all District 
agencies regarding the District's Year 2000 initiatives. In 
light of the urgency of the Y2K conversion, it is imperative 
that your agencies cooperate with the efforts of the Chief 
Technology Officer and the Inspector General to resolve the 
District's Y2K problems.

    This letter was sent at the request of the chief technology 
officer and the IG to make sure that the Authority made clear 
to all District agencies that they were to coordinate their 
efforts in Y2K with the chief technology officer and the 
inspector general.
    The District's Y2K remediation efforts are implemented in 
large measure through a contract with IBM Corp. IBM has been 
critical to this effort through the development of a project 
office, the initial assessment of systems and plans for 
remediation, and the actual conversion of computer software 
code. The initial contract developed through the General 
Services Administration was at a cost of $3.35 million. 
Additional bridge contracts of $4.8 million and $6.8 million 
have helped the District to receive supplementary critical 
support from IBM at this important time.
    On February 11, 1999, the Authority approved a $76.5 
million contract to IBM to continue this effort, subject to the 
availability of funds. Overall, the District has an allocated 
Y2K budget of $31 million for fiscal year 1999. However, the 
District's progress in systems remediation, based on its 
inadequate, though improving, technology infrastructure and 
late start, prompted the city to request additional Federal 
assistance. As a result, the District has requested from the 
administration emergency supplemental funding in the amount of 
$111.5 million, which will allow the District to meet all its 
obligations with respect to the Y2K problem. We were pleased to 
find out that the administration has committed to provide the 
$63 million that Congresswoman Norton mentioned in her opening 
statement.
    In conclusion, Mr. Chairman and members of the committee, 
the Authority, in conjunction with the Mayor and the Council, 
is effectively implementing an aggressive program to ensure 
that all major government services are provided throughout the 
millennium period. With the committee's indulgence, Ms. Peck 
will provide details about the Y2K program and program to 
improve the District's technology infrastructure.
    I would be pleased to respond to any questions that Members 
may have.
    Mr. Davis. Thank you very much.
    [The prepared statement of Mr. Hill follows:]

    [GRAPHIC] [TIFF OMITTED]58191.016
    
    [GRAPHIC] [TIFF OMITTED]58191.017
    
    [GRAPHIC] [TIFF OMITTED]58191.018
    
    [GRAPHIC] [TIFF OMITTED]58191.019
    
    [GRAPHIC] [TIFF OMITTED]58191.020
    
    [GRAPHIC] [TIFF OMITTED]58191.021
    
    Mr. Davis. Suzanne Peck.
    Ms. Peck. Mr. Chairman, Congresswoman Norton, I am Suzanne 
Peck, and I am the chief technology officer for the government 
of the District of Columbia. I am pleased to be able to appear 
again before your subcommittee to provide current information 
on the status of the Y2K initiative in the District.
    I will address the areas of Y2K remediation and testing, 
contingency planning and pilot project results, resource 
availability, and impediments to progress.
    As the Mayor discussed, the District's systems inventory 
consists of 336 business applications. Of these, 84, as he 
mentioned, are Y2K-ready, 117 require remediation and testing, 
and 135 have been already remediated by their agencies and 
require testing only.
    Approximately 10 million lines of code have been identified 
for remediation across the 117 applications in 16 different 
agencies. At this time, of those 117 applications, 27, with 
approximately 4.2 million lines of code, have been remediated; 
3 of the applications are currently in the testing phase, with 
plans currently under way to begin testing on the other 24. 
Additionally, 62 applications, with approximately 3.7 million 
lines of code, are in the remediation phase and are scheduled 
for testing during the second and third quarter of 1999. We are 
currently putting schedules together for the remaining 28 which 
require remediation and testing. Schedules are also in place to 
perform Y2K testing on the 135 applications identified as 
remediated by their departments.
    The current schedule provides for all application 
remediation and testing to be complete with applications 
returned to production by the end of November 1999. We expect 
to complete the work according to the following schedule: In 
the first calendar quarter, 7 percent; in the second quarter, 
12 percent; in the third quarter, 75 percent; and in the 
fourth, 100 percent, by November 30th of this year.
    All noncomputer hardware devices containing embedded 
processors or chips are non-IT assets, and they include systems 
such as HVAC, traffic control signals, telephones, fuel pumps, 
elevators and lighting controls. We are in the process of 
identifying non-IT asset across all District agencies and 
assessing their need for remediation. To date we have 
identified approximately 35,000 of what we expect to be a total 
of 85,000 such non-IT assets. Based on actual assessment data, 
we have determined that approximately 4 percent of these assets 
will require repair, replacement, retirement or work-around.
    The inventory and assessment of non-IT assets at the 
mission-critical agencies I will speak about in a moment is 
scheduled to be completed by the end of this month. We expect 
to complete remediation and implementation of all critical 
business-related assets by October 31st of this year.
    Beginning this week, we begin the distribution of their 
inventories to the individual agencies. These non-IT 
inventories will include identified work stations, software, 
infrastructure, as well as the non-IT assets and their 
associated need for remediation. Agencies can begin now 
purchasing their Y2K-compliant replacement equipment, and we 
will continue to work with our Offices of Budget and 
Procurement to help facilitate these transactions.
    Contingency planning continues to be the focus of the 
District's Y2K initiative. This is not a computer issue, but a 
business continuity and human factors issue. Plans we are 
working on with the agencies are geared to making sure that the 
agencies' most critical activities keep running even if their 
computers don't. The overriding goal of our contingency 
planning effort is to ensure that alternative operations are in 
place and are ready to execute if there are Y2K date change 
failures.
    We have focused our planning on 75 critical processes in 16 
priority-one agencies. We have identified--if the Chair shifts 
eyes left and most of us down here shift eyes right, you will 
see that we have identified these 16 agencies and their 
associated critical processes on the chart to the right.
    When we appear before you again, and you can see on the 
third chart--open the first two charts--are the mission-
critical agencies and their most critical business processes. 
What you will notice on these charts is that just because you 
are a mission-critical agency does not mean all your processes 
are mission-critical. We have starred those of the processes 
that are mission-critical to highlight that many of the 
processes at mission-critical agencies are not mission-critical 
and do not have first priority with us.
    On the third chart, you can see the remaining 52 agencies 
in the District, and when we appear before you again, we will 
have similar information to the first two charts on the 52 
priority-two and priority-three agencies.
    I am pleased to report that since my appearance before you 
in October, we have brought all the designated mission-critical 
or priority-one agencies under the District's Y2K umbrella and 
have expanded the original 16 agencies to include two more, the 
University of the District of Columbia and D.C. General 
Hospital.
    Our contingency planning methodology was tested in three 
pilots between September and December 1998, the CAD-911 
Emergency Response System, D.C. Water and Sewer Authority, and 
the D.C. Lottery. These pilots were later augmented by an 
additional pilot at WASA and one at the University of the 
District of Columbia. The result of all three successful pilots 
validated our basic methodology and approach that key 
stakeholders must own their own contingency plans and must be 
responsible for developing their own contingency plans.
    A critical project of this magnitude and time sensitivity 
clearly requires a substantial commitment of management and 
financial resources. We now have in place a nine-member 
District Y2K team, led by a senior program director and staffed 
by senior professionals. Each staffer manages a function or 
area of the project, such as contingency planning or vendor 
management, and serves as a liaison between 10 and 12 of the 
District's agencies. The Y2K staff leads an IBM team of 
technical and functional specialists, which will grow from 250 
to 325 this spring when the non-IT remediation, testing and 
contingency planning will be in full swing.
    Y2K is a complex project with an end date that doesn't 
move. Projects like this fail not by mountains, but by 
molehills. Our primary impediment is time. In a project of this 
size and scope and at this level of urgency, there will always 
be obstacles and impediments to timely progress. The very broad 
date-specific nature of Y2K presents hurdles over which we must 
consistently jump, avoiding critical slippages. This requires 
senior-level interventions and immediate urgent actions as we 
encounter the impediments.
    This last week is illustrative. We encountered problems 
that required exceptional contracting authority about which the 
Mayor and Mrs. Patterson have already spoken, required the need 
for immediate budget encumbrances to critical vendors, and 
required additional space for our IBM team. Through our Mayor's 
and through our senior management's rapid response, we were 
able to maintain our current progress, but we will leave this 
meeting and go solve two more problems of a critical nature. 
And so it goes, day in, day out, on Y2K.
    I would like to thank the chairman, the Financial 
Authority, the Mayor, the Council, the GAO staff, and senior 
members of the subcommittee for your responsiveness to our 
needs and concerns and for your instructive advice and 
encouragement. Your collective and continued support is 
important to our success.
    Mr. Davis. Thank you.
    [The prepared statement of Ms. Peck and the information 
referred to follow:]

[GRAPHIC] [TIFF OMITTED]58191.022

[GRAPHIC] [TIFF OMITTED]58191.023

[GRAPHIC] [TIFF OMITTED]58191.024

[GRAPHIC] [TIFF OMITTED]58191.025

[GRAPHIC] [TIFF OMITTED]58191.026

[GRAPHIC] [TIFF OMITTED]58191.027

[GRAPHIC] [TIFF OMITTED]58191.028

[GRAPHIC] [TIFF OMITTED]58191.029

[GRAPHIC] [TIFF OMITTED]58191.030

[GRAPHIC] [TIFF OMITTED]58191.031

    Mr. Davis. Mr. Brock.
    Mr. Brock. Thank you very much, Mr. Chairman. Good morning, 
Ms. Norton.
    It is a pleasure to be here again. I was here in October, 
and I think it is fair to say I had rather a bleak message, 
that the District was a year behind. Unfortunately, I am coming 
here today, and I am saying that we have another bleak message.
    One of the things I would like to do, though, as I go over 
where the District is, is I would like to separate the status 
of the District with what I think is a very fine project office 
within the District, and I think this office is working hard, I 
think they are working smart, and I think they are trying to do 
the right things. They started late, they started working in an 
environment that was not well documented, where people weren't 
working together, and they have made enormous strides in 
pulling things together over the past few months.
    Mr. Davis. I appreciate your saying that, because we have 
got the best people working on this. There is no lack of 
confidence in anybody up here. I want to make that clear. They 
have just been behind the eightball on this.
    Mr. Brock. That is correct. Last October we made several 
recommendations to the District to try to make sure they kept 
on pace.
    We asked that they identify the most important operations 
that they had, that they ensure that business continuity plans 
were developed, and that they made sure that the top 
stakeholders of the city were involved in every aspect of the 
operations.
    The District has initiated operations across the board that 
were responsive to our recommendations. They have identified 
over 75 core business processes that are the most critical 
processes and over 200 mission-critical systems that support 
those processes. The District has developed a very detailed 
project plan. They have developed and tested a contingency plan 
methodology that I consider to be excellent. They have 
developed a system testing strategy, and, most importantly, and 
as I just mentioned, they have a good program office.
    But it raises a question with all those actions, where are 
they today? We also have a chart, and they are still a year 
behind; maybe, in fact, a little bit more than a year behind. I 
think one of the problems the District has experienced since 
our last testimony was the awareness phase and developing an 
assessment of where their key systems were took longer than 
expected because of a lack of documentation, and, frankly, in a 
few cases, a lack of cooperation by some of the city offices.
    It is hard to recover this lost time. The District should 
be in the validation and implementation phase. That is, they 
should have fixed their systems by now, and they should be 
implementing their systems. They are just now moving into the 
renovation phase.
    They have renovated about 5 percent of their mission-
critical systems. They have developed six of the business 
continuity and operation plans that need to be developed, and 
only 1 of the 200 mission-critical systems has gone through the 
entire process and is now implemented.
    Our overall observations on their status is that it is 
still going to be very, very difficult to make up for lost 
time. They are on a razor's edge. Everything has to move 
flawlessly for the District to succeed. Their implementation 
schedule, as Ms. Peck mentioned, goes into October and 
November. If there are any problems in the testing, and most 
agencies encounter problems in testing, then there will be a 
very, very brief amount of time in which to remediate problems.
    To partially compensate, and I think that is all you can do 
at this point in time, I would like to emphasize, as did the 
District, the absolute imperative nature of developing good 
contingency plans. These contingency plans are not the 
responsibility of the chief technology officer. They are the 
responsibility of the business process owners and the key 
stakeholders within the District. They should very carefully 
lay out what an acceptable level of service is; not necessarily 
an optimal level, but an acceptable level of service. It needs 
to be funded. Those contingency plans need to be funded, they 
need to be ready to go, and they need to be tested. We would 
encourage the District to speed up an already ambitious 
schedule to get those done.
    Second, I am very pleased today to hear the Mayor and 
representative of the Control Board and a member of the Council 
vouch for their involvement in the problem. This is absolutely 
critical. As the District proceeds throughout the coming 
months, there are going to be many decisions that have to be 
made, many tradeoffs that will have to be reached in terms of 
what needs to be done first, can we let something go, can we 
let something slip, do we need to accelerate, do we need to put 
more money here or there. And these decisions, because they 
affect the service to taxpayers, the service to commuters, the 
service to citizens, are more appropriately made at the Mayor's 
level, at the City Council's level, at the Control Board's 
level, not within the Office of the Chief Technology Officer.
    So, in summary, the office has done a good job. I would 
like to congratulate Ms. Peck and her staff, but they are still 
behind. It is going to be tough.
    Mr. Chairman, that concludes my statement. Again, I am also 
available for your questions.
    Mr. Davis. Thank you very much.
    [The prepared statement of Mr. Brock follows:]

    [GRAPHIC] [TIFF OMITTED]58191.032
    
    [GRAPHIC] [TIFF OMITTED]58191.033
    
    [GRAPHIC] [TIFF OMITTED]58191.034
    
    [GRAPHIC] [TIFF OMITTED]58191.035
    
    [GRAPHIC] [TIFF OMITTED]58191.036
    
    [GRAPHIC] [TIFF OMITTED]58191.037
    
    [GRAPHIC] [TIFF OMITTED]58191.038
    
    [GRAPHIC] [TIFF OMITTED]58191.039
    
    [GRAPHIC] [TIFF OMITTED]58191.040
    
    [GRAPHIC] [TIFF OMITTED]58191.041
    
    [GRAPHIC] [TIFF OMITTED]58191.042
    
    Mr. Davis. Let me just say to Councilwoman Patterson, I 
like your Y2K legislation. I think it is a good move. Maybe it 
will be a model for some other jurisdictions that face this.
    Ms. Patterson. Thank you.
    Mr. Davis. It is certainly in the District's interest, 
because it has been a tort lawyer's dream. So I just want to 
compliment you. I thought it was very well thought out.
    Let me start by asking what kind of coordinated services we 
are getting from the Federal Government in terms of being able 
to help. They have a lot of expertise. You have the Federal 
supply schedules, you have all of these to bear, because just 
stepping back and looking at this, this is almost too big for a 
city or a county or any one jurisdiction to handle by itself. 
The Federal Government has been through this for the last 2 or 
3 years now.
    They have a group, John Koskinen who is looking this over, 
and I know they have offered to help and be of service. Mrs. 
Norton noted they added money last year, but money alone is not 
necessarily the only answer. There is the whole procurement 
cycle and expertise.
    Can you tell me, what is going on, or is there anything 
else that needs to go on?
    Ms. Peck. We, Mr. Chairman, are using several Federal 
functions to good advantage in terms most particularly of a 
data base that we use for vendor management for certification. 
We are using both the experience and the breadth of the GSA's 
data base for vendor management certification, as well as the 
city of New York's, IBM's, and one from Fluor Daniel. So we are 
getting very particular help federally from GSA on that 
dimension.
    We are getting help from John Koskinen's Presidential Y2K 
Council in that he acts as a forum through which we can come 
together. The next time that he is planning to get us together 
is March 26th for a regional Y2K contingency planning 
conference, and that will be sponsored in conjunction with the 
White House and with COG. So, most particularly in those two 
areas, we have been using the facilities of both the Y2K 
Council and of Federal activities to our advantage.
    Mayor Williams. I would echo that.
    Mr. Davis. As we look at the mission-critical priority 
areas, I think, Mr. Brock, you testified if things go well for 
the city, those areas can be fine. Obviously little things can 
be slipping through for years in Y2K, both in the private 
sector and governmental sector as we understand what the 
ramifications are.
    I am reminded of a company in England recently that lost 
all of their corn beef inventory because zero-zero was the 
expiration date stamped on the meet, and the computer read it 
as 1900 and thought that it was 98 years old. Unless you are an 
Irishman on St. Patrick's Day, it may not make any difference 
if you lose your corn beef, but it is indicative of how these 
things automatically go through, and you don't discover them 
sometimes until it is way too late.
    You saw in Europe with the Visa and MasterCards, a third of 
them were being rejected on Y2K issues earlier on. But as we 
move forward, you think the mission-critical areas, you are 
saying the city can still meet those? They have identified 
those areas; the priority areas can be met so that tourists, 
people working in the city, their lives should not be 
disrupted?
    Mr. Brock. Many of the mission-critical systems are not 
scheduled for completion of their testing until early November, 
late October. If these systems experience problems in the tests 
that require further corrective action, some of them are on a 
very thin margin, and that is why we would strongly recommend 
that these contingency plans be developed early, so that an 
acceptable level of service can be provided for critical city 
services.
    Mr. Davis. Let me just ask, Ms. Peck, do you agree?
    Ms. Peck. Absolutely. The contingency planning is an 
activity in general that we have brought very far forward. We 
have had five successful pilots. We are doing two major 
activities. One is a facilitation activity for these most 
critical 75 processes and for these most critical 16 agencies 
in which we personally send in a facilitation team. That team, 
for each of the critical business processes, is at the agency 
for 5 days, with the function experts at the agencies building 
those plans, and when that team leaves, there is a full 
meticulous plan.
    But just as you said, the responsibility for the execution 
and responsibility for making sure those plans are tested is 
with the agency, and there we are taking on the responsibility 
really of being the keepers of the master schedule of those 
contingency plans, so that we can track and report not only are 
the contingency plans completed, but that they have been fully 
tested at the agency.
    In addition, we have a training cycle for building those 
contingency plans and have trained about 300 personnel at 
District agencies for those elements that are not the top 16 or 
the top 75, so that those contingency plans can be built as 
well.
    Mr. Davis. What about the option of windowing. Those can 
sometimes be stopgap measures. Are we looking at that, 
exploring that? That doesn't solve the problem, but it gets you 
over a time hump sometimes for a few years.
    Ms. Peck. In fact, I think there is not for the past 2 
years any enterprise who has done other than something called 
fixed windowing. Fixed windowing gives you in total a 100-year 
time span. So even that which is a temporary fix rather than a 
permanent fix gives you 100 years' time.
    Mr. Davis. OK. Some simple things, street lights should be 
working, traffic signals. Those are the kind of things that are 
nightmares if they don't perform on time. You will have plenty 
of opportunity to run checks on those and make corrections?
    Ms. Peck. We know now that the 1,500 intersection traffic 
signals that we have in the District will work on January 1st. 
All of the non-IT relay components in those traffic lights are 
being repaired on an aging basis. But we know that although 
there is a year component in the relays, that in point of fact 
the light themselves do not access that year component.
    Mr. Davis. Do you think----
    Ms. Peck. So they would be fine even if we didn't replace 
them.
    Mr. Davis. The question then from our perspective is you 
have sufficient resources to do the job at this point you 
think?
    Ms. Peck. Yes, and where we do not have them, we have had 
powerful response from your office, from Mrs. Norton's office, 
from the Control Board, and we have an extraordinarily strong 
new advocate in the Mayor as well.
    Still, we lose days, but we lose as few I think as we can, 
and action really now is being taken quickly.
    Mr. Davis. And you streamlined the contracting and 
procurement, so when you need to get something----
    Ms. Peck. That was by an order of magnitude our largest 
impediment, and one of the Mayor's first activities was to 
streamline that process.
    Mr. Davis. Mayor Williams, you inherit a lot of these 
issues when you came into office, and you just try to deal with 
them. How comfortable are you at this point in terms of being 
able to at least get the mission-critical areas resolved by the 
end of the year?
    Mayor Williams. I think, Mr. Chairman, the three things 
that I can do to contribute most effectively to this process 
is, one, to show the executive leadership at the highest level 
of our government that this is an important problem. And agency 
managers, the agency managers we are talking about, and you 
have seen this many times in the committee as a whole, the 
agency managers have to pay attention to these technological 
issues, these financial issues. They all roll up to the agency 
manager, and they have got to make this their key priority over 
the next year. That is No. 1.
    No. 2, showing from, again, this office that we are going 
to do everything possible, in conjunction with the Council, in 
conjunction with the Board, in conjunction with the Congress, 
to clear out the obstacles so that this project office can do 
its job. We have looked at her critical path, in other words, 
where she is now, where she needs to be, in order to get these 
mission-critical things going, and she is not going to make it 
unless she gets procurement relief.
    You know, some exemption from some of our normal 
procurement rules, and we are committed to doing that.
    Then, probably less glamorous, but most important, I 
totally agree with what Suzanne is saying and what Jack has 
said. We have to do an enormous job to see that all of our 
agencies are ready with tested contingency plans so that in the 
event something doesn't go right, we are ready.
    Mr. Davis. OK. Thank you.
    I yield to my ranking member, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I want to acknowledge 
the presence of students from the Cesar Chavez Charter School.
    Mr. Davis. Welcome.
    Ms. Norton. They have come to the Capitol as part of my 
D.C. Students in the Capitol Program. Here are some of them 
coming in, and some of them are seated----
    Mr. Davis. They can sit here on the floor, if they would 
like.
    Ms. Norton. Take a seat anywhere. This program has sent 
thousands of students to the Capitol so that if you are born in 
the District, you get to see these folks who get into your 
business all the time in the Congress.
    As a native Washingtonian, I never once visited the 
Congress when I was going to Monroe Elementary, Banneker Junior 
High School, and Dunbar High. We had no Representative, we had 
no Mayor, we had no City Council. That is one of the reasons it 
has been important for me to have youngsters come here, and 
they have come by the thousands.
    It is rare that there is an actual hearing going on 
affecting the District. When I went out in the hall, I told 
them that the Mayor was here and Council Member Patterson was 
here and other officials, so it is rare for them to hear when 
somebody is actually talking about the District, and I want to 
welcome them again. I believe I saw statehood Senator Paul 
Strauss come in, and I want to welcome him as well.
    Mr. Davis. Let me just say, they can take seats here or 
come in and walk in on the other side. We will kind of relax 
the rules so that they can find seats on the floor.
    Ms. Norton. I asked them how many of them had worked on 
computers and how many of them knew about the Y2K problem, and 
they seemed very knowledgeable about the problem and its 
effects. We are learning more about the problem as it affects 
D.C.
    As I listened to your testimony, I found that this time the 
devil is not in the details. The more one hears the details, I 
think the greater the comfort level. Even, Mr. Brock, your 
recommendations tend to ask for more of the same as opposed to 
a breakthrough on things that the District has to do.
    Now, there are problems I have in translation, and I would 
like to ask you if you would help me translate, if Mr. Brock 
would help me translate. For the other text, the Mayor's 
testimony, though, it is approximately the same testimony as 
Council Member Patterson and Ms. Peck, and that is, Mr. Brock, 
the way you present the problem at page 6, ``According to the 
District's Year 2000 program manager, at this time, the 
District has only renovated about 5 percent of its mission-
critical systems with less than 1 percent of its mission-
critical systems completing validation.''
    That is the kind of comment which, left by itself you are 
talking--and in talking to residents, I don't know if what they 
are supposed to do is increase the number that move out of the 
District or not when they read that because they don't know 
what that means.
    All right. When I looked at the Mayor's testimony, he 
doesn't put any spin on it, he simply says, ``Of the 336 
business applications that exist in our systems''--I am here at 
the bottom of an unnumbered page--``and our system's inventory, 
84 are Y2K ready, 117 require remediation and testing, and 135 
have been remediated by their agencies and require testing 
only.''
    I have to tell you, I can't reconcile what is being said. 
The average resident who is now getting greater confidence in 
the city doesn't know what it means, so my question is very 
basic. Could you translate between yourself and the Mayor's 
testimony and the testimony of the other actors here so we get 
a sense of what that means in real terms?
    Mr. Brock. Sure. I suspect that we are both right. We were 
talking about mission-critical systems in our testimony, those 
systems that the District had said are absolutely essential for 
vital service to be provided; and I believe--and I am sure that 
Suzanne can correct me if I am incorrect--that in her statement 
and in the Mayor's statement, they were talking about all the 
business applications systems, not just the mission-critical. 
So we were talking about a subset of the population that the 
Mayors and Ms. Peck were discussing; is that correct?
    Ms. Peck. Absolutely.
    Ms. Norton. The mission-critical systems are the ones you 
are focusing on now?
    Ms. Peck. That is correct, Ms. Norton, so that if--like 
they have a couple of numbers in front of me that may be the 
reconciling numbers. In terms of those 16 critical agencies, in 
terms of just their remediation and test status, they are in 
the first quarter of the year. Remember that because we came 
late, we are going to come to a tsunami-like press where we are 
doing so many things simultaneously, but that press comes 
rather late. So Jack is exactly right when he says if you 
looked right now, it is 5 and 1 percent. We complete assessment 
of all those 16 critical agencies' systems in the end of the 
first quarter of this year.
    Seventy-five percent of the remediation in the second 
quarter, 100 percent of the remediation in the third quarter, 
but the testing, the completion of the testing of all of those, 
75 percent of it does not complete until the third quarter, and 
100 percent of the testing of all of those critical systems 
does not complete until the fourth quarter. We actually are Y2K 
ready with all of those critical systems only somewhere between 
the third and the fourth quarter of this year. We come down to 
the fall at a gallop.
    Ms. Norton. Continuing the dialog between you and Mr. 
Brock, he says in his testimony at page 5 that--he begins, it 
seems to me, very fairly when he--in the section of his 
testimony saying the District is still behind schedule, opens 
by saying, ``The District's recent actions reflect the 
commitment to protect its key business processes from Year 2000 
failure.''
    Then he says--this appears to be his greatest concern: 
``However, its schedule for fulfilling this commitment is 
highly compressed and moves through three or four phases,'' and 
he goes on to say what those phases are.
    You have just indicated that that is indeed the case?
    Ms. Peck. Absolutely.
    Ms. Norton. Do you think that there are significant risks 
in compressing this process, the risk of not completing it 
precisely because it is so compressed and it has not been drawn 
out because of the District's late start?
    Ms. Peck. One of the few happy circumstances for the 
District of Y2K and of the fact that the District's systems are 
so stovepiped and so individual is that normally you can't 
compress schedules because systems have dependencies on each 
other, and so you need to do things sequentially because of 
dependencies. The District's systems are so barely primitive 
that they don't integrate, they don't depend on each other, and 
you can do a lot of things simultaneously. There is not a lot 
of interaction among systems of an enterprise that has had a 
disinvestment for over a decade and a half in technology.
    So while there certainly is risk to do more things 
simultaneously, in our case, because the systems are 
independent of each other, have few interfaces, and have almost 
no interceptions with each other, the risk is relatively 
mitigated in doing that. If the team you have is strong, if the 
tools you have are strong, if the methodology you have is 
strong, and if you have enough of those teams set up, you can 
do the work in the way that we are doing it. It certainly is a 
greater risk than doing things sequentially because always in 
any project like this what you end up needing is the single 
thing that we don't have: time.
    Ms. Norton. Let the record show that this is one occasion 
where the District's dysfunction has worked to its benefit.
    Just as I needed your help in translating the difference 
between the way the city spoke of the problem and the way that 
Mr. Brock did, and learned that there is not a great deal of 
difference, I have to say to you that I think that with the 
general public, here and elsewhere, the translation problem is 
even greater; and of course we know that the alarmists have 
taken to the television waves and the rest of it.
    I am very concerned--first, that we understand the real 
problem, because I think hiding the problem or not discussing 
it openly is the way not to solve it; that it is most important 
that the public know and that this committee know. At the same 
time, one of the problems we have had on this--on our overall 
committee is that governments have found it difficult to 
describe the problem in such a way that the public can 
understand it, and understand whether it is supposed to be 
alarmed or not alarmed.
    Now, if you live in Podunk, that may not matter to you. 
But, if you live in the District of Columbia, where we lost 
three times as many people in the 1990's as we lost in the 
1980's, I want to make sure that whatever signal we send out 
there is the right signal, not an alarmist signal, not a signal 
that says, continue to get the hell out of Dodge because an 
even worse problem is coming.
    Let me ask some additional problems about translation. Mr. 
Brock says at page 7 of his testimony, and I am looking at the 
second sentence, ``As a result,'' and this is the kind of 
generic language the public is treated to every day: ``As a 
result, it,'' the District, ``faces a significant risk that 
vital services will be disrupted.''
    OK. You know, if I am Joe Blow, reading that, I really 
don't know, Mr. Brock, whether that means that something that 
already happens in the District--occasionally red lights and 
green lights don't work--is what you are talking about, or 
whether you are saying--I won't say 911 because that doesn't 
quite work yet--or whether you are saying that there is going 
to be a breakdown when I call the police when somebody is 
trying to get into my house or when I pull a fire alarm.
    So I object to this notion that vital services will be 
disrupted, without more detail about what we mean.
    I am asking whether or not this means service disruption in 
the way that the average citizen means it, and that doesn't 
mean for the average citizen a glitch or an inconvenience. The 
word ``disruption'' in the Y2K context means, this service will 
not be available to me.
    I would like some explanation for what you mean, and then I 
would like the city to indicate whether it thinks there could 
be minor inconveniences, or whether it thinks there will be 
serious service disruption of the kind that could disrupt 
somebody's daily life in the city.
    Mr. Brock.
    Mr. Brock. Sure. That is an excellent question.
    The 16 critical agencies that the city has identified all 
provide vital, critical services, and I'm talking about police 
protection, fire protection, education, a whole range of 
services. For many of these critical agencies, their business 
processes will not be tested, their systems that support those 
processes will not be through testing until late October. That 
gives the city very, very little time to implement, and gives 
it very, very little time to take corrective action.
    If they had been able to be on a schedule, they would have 
had almost a year to do this. Instead, they have 2 months.
    Ms. Norton. So it will be done, but not tested. So there 
could be more glitches. It will be done perhaps, but not fully 
tested?
    Mr. Brock. Well, there are opportunities for glitches in 
any sort of test process. Almost all the tests we look at have 
glitches, and they have to be corrected. I mean, that is why 
you test it. As a result of that, right now, I think it is 
impossible for the city to say, well, this is--this will be a 
specific problem that we face, here is a range of problems.
    I think as the city goes through and begins to complete the 
tests and develop the acceptable business continuity plans for 
an acceptable level of service, as the year approaches the end, 
they should be able to say with more certainty that we are 
going to have some problems here, and this is what we are doing 
to take corrective action.
    Right now, I think it is too early to say what the specific 
problems would be, but I don't think it is too early to say 
that there is a risk that is being faced here. And as a result 
of that risk, the city needs to make sure that they are 
completely involved in the problem.
    Ms. Norton. Mayor.
    Mr. Williams. Just speaking for the city, Congresswoman 
Norton, what we want to do is track the project. As we are 
tracking the project, assess the risk that we may not make it 
through----
    Ms. Norton. Say that again.
    Mr. Williams. Assess the overall projects, assess the risk. 
We may not make it on some component of one of the critical 
agencies.
    We want to have our contingency plans ready in June, test 
those plans, do the necessary public education so that in the 
event we have a problem, we are able to do what you would call 
a work-around, work around the problem and provide that 
critical service to the citizens in whatever it happens to be. 
While none of them are of magnitude and severity, I would argue 
that many of the improvement projects in the District, we are 
doing work-arounds right now. We have lousy systems, not 
providing good information, and we basically work around them 
with a manual, labor-intensive process that we may have to do 
this year.
    So I am not minimizing it, I am just agreeing with the 
committee that we need a very, very high priority for this; as 
we move aggressively on this effort, that we also track the 
risk, have the contingency plans in place, and then do the 
necessary public education to make sure they work. And we 
welcome your oversight.
    Ms. Norton. I am going to turn it back to the chairman in a 
moment, but let me just say to you, Mr. Brock, with the 
resources of GAO at your disposal, I think it is time somebody 
looked at cities or governments where they have gone through 
some of this process. We have a crackerjack team here, an IBM 
team, who assessed how many problems they found when testing, 
rather than going before the public and saying, there is a 
risk. We are at the point when some governments have indeed 
gotten through this process somewhat, some of them using teams 
similar, if not the same teams as IBM.
    It is incumbent upon the GAO at this point in the process 
to be able to say more than you have said this morning. Whether 
there is some risk in the District of Columbia, I can't tell 
you a thing yet. These folks are doing everything they are 
supposed to do.
    So I would ask the GAO to look at some similar systems that 
have gone through the process to evaluate whether or not there 
were significant problems found when they tested the process, 
so as to give cities that are still in the process, to give 
governments still in the process, some idea of whether or not 
systems properly done in the hands of real experts are likely 
still to cause significant problems so that the public has 
reason to be alarmed. I just think we begin to owe it to the 
public at this point to say more than, ``I don't know,'' to 
quote a well-known figure in the District, when asked how great 
is the risk.
    Thank you, Mr. Chairman.
    Mr. Davis. Thank you, Ms. Norton.
    You know, it looks to me like we have good people on this, 
we have a good program sitting where we are. The enemy is the 
clock. You know, at the Federal level they are starting testing 
the end of March. They have much more complex systems than we 
do, so they probably need more time, but we don't have the kind 
of margins that we would like. Even if your systems work 
totally, maybe the hospital or the power company, or whoever 
they interact with hasn't made the same kind of changes, and it 
would be nothing on your end that needs to be fixed. But some 
of the others have to be fixed, and there is another 
complication; that is why testing is so important.
    So when we look at these, we are just kind of facing the 
reality of here is where we are, here is what we are doing to 
fix it, and trying to put together--not assessing blame or 
anything, but just trying to say, here is the program to fix 
it.
    I have every confidence that the major issues that confront 
people in terms of public safety and the like, public 
utilities, we are going to give that a 1,000 percent effort and 
that those will be fixed. We don't know yet how we are going to 
fix them because we don't know what we need to do to fix them. 
But working together with the people, the groups, the systems 
that you interact with, I think we will be able to do that.
    But this is a very complicated maze of systems that we are 
talking about, and we are only focusing right now on the 
critical ones, the mission-critical ones. There are some down 
beneath that will affect some people--not the average tourist 
or commuter, but maybe somebody who is looking to get their 
check in the mail or trying to get a license or something--and 
it may not work as well.
    The city is not the only jurisdiction in the country; we 
have private organizations. Everybody is concerned about this, 
and all we can do is focus on the problem the best we can, try 
to continue to give out data as we understand it, share it with 
the public. We don't want to be alarmists, but we need to put 
our shoulder to the wheel and just move forward, and it sounds 
like you are doing it.
    Mr. Brock, you would agree at this point that we have the 
team in place, probably the resources in place, and if we 
don't, we have the wherewithal to get them, and that time is 
the enemy?
    Mr. Brock. Yes, I agree with that.
    Mr. Davis. I just wanted to make sure I had the 
understanding on that, and that there is no disagreement. We 
have confidence in every one of you now, we are just late; and 
the city has other problems, in fairness, that it needed to 
focus on, particularly, Tony, when you were CFO, stopping the 
financial bleeding and those kinds of things. I would put that 
ahead, on my priority list above the Y2K problem.
    But this is going to be a challenge to all of us in the 
private sector, Federal Government, and now the city, to try to 
get ready, and we will probably hold another hearing down the 
road to see how you are doing on these particular issues.
    Ms. Peck, let me just ask you a question. We had a report 
this week on the phone lines in the city that were not being 
utilized. Can you explain to me what that is all about? I just 
read the news clip on that. Were these lines that people were 
using, or weren't using, and we were paying for them? Were 
there any long-distance charges involved? Was this just lack of 
management, oversight, or what is your assessment on that?
    Ms. Peck. I guess all of the above. The District has about 
26,000 phone lines. The inspector general found by statistical 
analysis that about 9,000 of those phones were unutilized and 
were being paid for. We had responded--this was his second 
report. We had responded to his first report with a drawing in 
of a breath, and then the immediate assignment of a group to go 
in, find those 9,000, and not only stop the charges on those, 
but more importantly, and as is so much in the District, more 
importantly, to institutionalize the control mechanism that 
will determine that not only those are taken away, but that 
going forward we don't have--we don't have new ones.
    So that piece of work is in progress, as is the piece of 
work under management reform that is replacing those obsolete 
dialed equipment, 8,000 of those phones. The 26,000 that we 
have are still rotary, were rotary phones. Now we are down to 
less than 1,000 rotary phones, but we now have good digital 
ISDM Centric, state-of-the-art technology in our phone systems, 
and that project is going well.
    In terms of just basic, primitive infrastructures for the 
District, so that we can operate efficiently, we are going a 
long way there, and with observations like the IG's, which are 
very helpful to us in focusing us, we will save that $1.8 
million very rapidly and not incur it again.
    Mr. Davis. You know, in the past, when you have come up 
with a GAO and IG report, you would have the city on the 
defensive. I don't see that here. I hear, hey, we have to fix 
that, it is here, let's work together. I think if we work in 
that attitude, a lot of the problems of the city are going to 
be worked out.
    Ms. Peck. Let me say, especially----
    Mr. Davis. Because things go--in a huge organization, a lot 
of things go wrong even when you are managing it right. It is 
just the nature of the beast.
    Ms. Peck. Jack and his group are with us, I would say, de 
minimis, on a biweekly basis; and I am smiling in a truly 
grateful way when I say the sentence to him: Probably GAO is 
our friend; they have pointed out to us many, many problems.
    Mr. Davis. I am going to quote that.
    Ms. Peck. They have been very helpful to us.
    Ms. Norton. Will the chairman yield?
    Mr. Davis. Stopped preaching, started meddling.
    Ms. Norton. Ms. Peck, GAO is paid to find problems. GAO is 
never your friend.
    Mr. Davis. ``I am from the GAO, and I am here to help 
you,'' is that right?
    Mr. Brock. That's right.
    Mr. Davis. Let me ask how the schools are interacting with 
this. Has anybody brought them into the equation at this point?
    Ms. Peck. All 147 of the schools--all 184 of the buildings 
in the public schools are in the Y2K tent, under the Y2K 
umbrella.
    Mr. Williams. We also are working on legislation in the 
Council that would put all of the independent agencies, the 
schools, everybody under the Y2K umbrella, for the reason you 
have identified.
    Ms. Norton. Independent agencies aren't now under the Y2K 
umbrella?
    Ms. Peck. Yes, they are.
    Mr. Williams. They are, but legislation helps to keep them 
under. I will put it that way.
    Mr. Davis. Exactly.
    What do you think--what has the concentrated Y2K effort in 
the District revealed. Do you think, in terms of the District's 
overall information technology system status? How will ongoing 
strategic approaches to information management in the District 
of Columbia be pursued and what are the budget implications of 
what you have learned during this process? I ask all of you to 
comment, if you care to, because you learn a lot when you go 
through a system like this and find out what you have.
    The technology in this world is moving so quickly. I have 
here a cell phone where I can call from anywhere in the world 
on this cell phone, and yet half the world's population has 
never made a phone call. So the technology is incredible as we 
work through what have you learned as you have gone through 
this Y2K? Can you imagine if Gilligan had this on his island? 
It would have lasted maybe two episodes instead of 7 years.
    Anyway, what have you learned?
    Ms. Peck. I learn the homey things, I learn the primitive 
things. I learn our opportunity. Our opportunity, because of 
the dozen years of technology disinvestment, our opportunity is 
to go from worst to first in one leap-frog. We didn't spend the 
money on technology; that is bad news. We didn't spend the 
money on technology; that is now good news, because we now can 
just make one single spend to be with everyone else. The Mayor 
consistently says that one of his economic development goals is 
for us to take our rightful place in the region as a technology 
partner with Maryland and Virginia and to participate in that 
technology richness, and we can do it in one leap now; and he 
means to do it, and I mean to help him.
    One of the--let me tell you some of the advantages that Y2K 
has for us, though. When I came the last time, Congresswoman 
Norton, I gave some of the advantages and you accused me of 
making lemonade out of lemons, but we really do have some 
lemonade to make.
    We have in the District right now eight individual data 
centers. None of them are state-of-the-art; in fact, all of 
them are very much below state-of-the-art. Y2K forces us--
because you can't take fixed code and put it back into bad data 
centers, forces us to do a data center consolidation now so 
that at the end of Y2K we will have emptied those, all of those 
data centers, and we will be to a place where we have one, 
single consolidated state-of-the-art data center, and much more 
rapidly than we would have had if we had had to have gone and 
convinced each agency head to give up those data centers.
    Mr. Davis. You are saying it may be a bumpy road, but at 
the end of the road you can come off better than some of the 
other jurisdictions?
    Ms. Peck. Absolutely. The whole district--another one of 
the Mayor's enormous focuses is services to the citizens. For 
us really to serve the citizens, each of those 68 agencies has 
to reengineer their business processes so that they can make 
service-level commitments to the citizens, so that when you, as 
a citizen, call, we say, we will call you back within 24 hours 
and we will have that pothole fixed in another 48. For that to 
happen, DPW has to totally reinvent how it works inside the 
agency.
    One of the things that the contingency planning for Y2K has 
done in coming in and looking at all of the business processes, 
and all of the agencies have done is, it has really prepared us 
to start to look at ourselves in that citizen-service way, and 
that has been very helpful.
    There was not, with the exception of the Office of 
Emergency, Office of Emergency Management, there was not a 
single contingency plan in the entire District. In another 8 
months, we are going to have 68 of them that we know work. That 
is an enormous advantage to us.
    So there really are lots of advantages that if we had been 
less primitive, we wouldn't have gotten what we are getting.
    Mr. Davis. OK. Ms. Patterson.
    Ms. Patterson. Thank you. I would appreciate a chance just 
to respond and take off from one of the things Ms. Peck said, 
which was looking at the Y2K challenge as an opportunity to 
also look more broadly at governance issues.
    Just by way of example, one issue in the Y2K conversion 1 
year ago today was lack of accountability for decisionmaking in 
that issue area. We had Ms. Peck's predecessor, there was an 
issue about reporting relationships and fast decisionmaking and 
accountability. The inspector general testified before my 
committee that we needed clearer lines of authority, that the 
chief technology officer needed to be a direct report to the 
chief executive officer, and you have heard the Mayor here 
today say that that is the case today. So that is one problem 
flagged through this issue, but it really speaks to some of the 
governance issues.
    Procurement is another governance issue that we have. It is 
my view that the buying of goods and services is an executive 
function, but the Council now reviews procurements. One of the 
things that the Mayor flagged, that we will be considering, is 
waiving some of that review for Y2K purchases. That is a 
critical issue before us now, but it is also a longer standing 
issue: what is the role of the legislature and what is the role 
of the executive as we move back to our home rule government 
and better define what we do.
    Mr. Davis. The contracting procurement obstacles obviously 
in this sense, I don't know if you need a legislative remedy or 
just kind of an agreement that we are going to waive the 
usual----
    Ms. Patterson. We would need to legislatively waive some 
provisions of the Procurement Practices Act, and I think the 
Council is going to be asked to do that. But it is also an 
issue for the Congress because it is a congressional law that 
requires Council review of contracts over $1 million. So that 
may be one that the Mayor will speak with you about.
    Mr. Davis. We will obviously help in any way we can. Again, 
confidence--at least from my perspective, confidence in the 
team, time is our enemy on this particular issue. I don't want 
to get discouraged because things are going to go wrong down 
the road. When you try to reinvent a city, things are going to 
go back. You don't get discouraged. In terms of where we end up 
4 years from now, or 6 years from now, that is what counts. 
Just don't get discouraged.
    GAO and the IG and these other groups some days may seem 
like--well, but they are all part of a process that gets us 
where we need to be to make a model Capital City at the end of 
the day.
    Mr. Hill. Mr. Chairman, one of the things that I think has 
been a by-product of what we are doing in Y2K is, that many of 
the agencies that really have not worked together before in 
trying to solve an issue have to pull together on this. As we 
said before, I think the alignment of procurement, the 
alignment of information technology, some of the crosscutting 
functions, all of those have to be brought to bear and aligned 
in order to make this work; and we have had to really stretch, 
I think, some of the rules that we have had in government help 
us make sure that some of the controls are still there. But, 
moving forward, I really think it has helped us to see how we 
can streamline government processes as well.
    Mr. Davis. Let me just ask a final question. I mean, all of 
the vendors that are doing business now, you have contractual 
provisions ensuring that they are going to be Y2K compliant, so 
if something is wrong you can hold them accountable. The 
Federal Government had this problem where they were doing major 
systems and they had no Y2K compliant clauses in the contracts, 
and a couple of them worked. You can imagine what that did up 
here. And then they found it and some heads rolled.
    Ms. Patterson. That is part of the legislation that we 
enacted which requires that compliance and a warranty for Y2K.
    Mr. Davis. Good. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Ms. Patterson, the chairman has some legislation here that 
I believe may be similar to the District's legislation. Could 
you give me the bold outlines of the District's legislation, 
the immunity legislation?
    Ms. Patterson. Sure. The title was the Year 2000 Government 
Computer Immunity Act of 1998. The three basic provisions: it 
immunizes the District government against any lawsuit or any 
administrative action that comes out of a Y2K system failure.
    A second point, it bars third parties from filing lawsuits 
or administrative actions arising from a year 2000 failure 
against District government vendors if the primary cause of the 
Y2K failure was hardware, software or equipment owned by the 
District government. This is a provision that is designed to 
shield contractors from the District's Y2K problems and ensure 
that they will not charge the District higher prices as a form 
of protection against that conversion--against that failure.
    And the third provision that I just mentioned is the item 
in the contracts with the government themselves, where 
contractors will be required to include a warranty for 
compliance on all goods and services provided under that 
contract. Those are the three basic elements.
    Mr. Davis. If you would just yield to me for a second, but 
if you are PEPCO and you have a Y2K problem, I can sue the 
pants off you, right, for a private company?
    Ms. Patterson. Unless and until the U.S. Chamber of 
Commerce seeks some kind of help from Congress.
    Mr. Davis. Help is on the way for the private sector.
    Ms. Norton. This is more radical than the bill you were 
describing, Mr. Chairman. This is no suit against the District. 
The chairman's legislation has a cap on suits, no punitive 
damages.
    I am not sure if it is going to stand up, but I like the 
approach.
    Ms. Patterson. We were following the lead of the State of 
Virginia, among others, in our legislation.
    Ms. Norton. Of course, it is not time to sue under that 
yet, to see if that legislation is valid. But anyway, I like 
it.
    Let me ask a question about the $1 million cap. We put the 
$1 million cap into the Control Board legislation--and by the 
way, you waived the $1 million cap. I don't think it takes 
legislation up here with the $1 million cap when we were not 
getting the transportation money into the streets fast enough, 
and I do not think it takes any legislation here. But I am 
concerned about the cap because we didn't put the cap in 
because we felt a $1 million cap was particularly necessary.
    We put the cap in--remember, the District was insolvent for 
one reason and one reason only. The Congress had, residents 
had, and the Council had, no confidence that contracts would be 
done on a competitive basis and that the District would get 
value for its dollar; and we didn't, as a home rule matter, 
have any way to get into the District's business that way. So 
we took something that the Council had been trying to get for 
some time for that reason.
    The Council had also been trying to get it for that reason, 
because it couldn't get ahold of the contract process.
    Now, as it turns out, there is no city or State in the 
country that I know of--and I have asked for this to be looked 
at--where you had any similar provision. I have to tell you 
that I have been concerned about some of the ramifications, 
among them politicalization of the process, which is the exact 
opposite of what the Congress was seeking. Now we see it coming 
up--the notion that we have to go through a process of waiting, 
all I can say is, I hope it isn't holding up anything, Ms. 
Peck, that you have to have a piece of legislation in order to 
do procurement above $1 million.
    But I would like to ask you that question first, and then I 
would like to ask you whether or not this proxy for fixing the 
contract system is the best way to do it, or whether fixing the 
contract system may be better, and whether we ought to simply 
do away with the Control Board in any case.
    Ms. Patterson. I would be pleased to respond to that, if I 
might. I think it is very understandable why the provision was 
put in place in the first place, but as a by-product of 
procurement reform, and we are well on our way in procurement 
reform based on the legislation enacted by the Council in 1986 
with support from the Authority that is being implemented by 
our chief procurement officer, Dick Fite.
    I think we are well on our way to improving our contracting 
processes, and this is a centralized, professionalized 
function. He serves a particular term in office, that--as we 
get to the end of procurement reform, and we can really say, 
yes, we have done it, because we are not quite there yet, but 
we are moving--I think it would be fair enough to say that the 
Council review and Council approval of contracts is no longer 
necessary because we have improved the entire contracting 
process. That would be--I would certainly support that.
    I don't necessarily speak for 13 Council members at this 
time on that issue, but my staff is also researching around the 
country for who has what kind of contract review and one city 
council did respond to us that they don't have it, but they 
sure would like to, for the record.
    Ms. Norton. We didn't mean to jump from the frying pan into 
the fire, and we haven't. I recognize that for the most part 
this has been handled responsibly, but it is just another 
holdup, it is another glitch. It wasn't put in there because we 
thought it would streamline the government; it was put in there 
to stop up the government, to keep the contract process from 
going overboard.
    Mr. Mayor.
    Mr. Williams. I agree with Councilwoman Patterson. I agree 
because I think, No. 1, it diffuses responsibility. You get a 
lot of finger-pointing. One of the reasons why we are coming in 
here late with Y2K is a lot of finger-pointing with diffusion 
responsibility in the past. You are also not able to buildup 
any momentum, so you are going to hold the executive branch 
accountable for doing a lot of stuff, you don't have any way to 
buildup any momentum or any velocity, but we are constantly 
belaboring the same issues over and over again. So I think it 
is a great thing for really aligning authority and 
responsibility the way it should be in an organization.
    Ms. Norton. It is a huge separation-of-powers problem. 
Imagine the Federal Government, I think there would be 
unconstitutional.
    Mr. Williams. Absolutely.
    Ms. Norton. So that we, the Congress, would have to approve 
anything over a certain amount that the President is willing to 
do. We have gotten away with it here, for what reasons I am not 
sure of.
    Ms. Peck, is this authority that you need, this waiver that 
you need, in any way--has it in the past or is it now holding 
up procurement?
    Ms. Peck. Absolutely.
    Ms. Norton. It is? Has it in the past or is it now holding 
up your procurement of necessary technology?
    Ms. Peck. Absolutely. A typical way that Kathy mentioned, 
Richard Fite, who is an extraordinarily professional executive 
in the District and who has brought procurement a long way, 
typical technology, and his first focus was on small purchases, 
because that is where the volume was; and he has done an 
extraordinary job there in streamlining that process.
    Technology's difficulty is that almost everything we buy in 
these days of spend is over $1 million. Here is what the chief 
procurement officer in the District is reduced to regularly. He 
will give us on our typical $15 million, $25 million contracts, 
he will give us his $1 million worth of authority so that we 
can get started, a laborious process itself; and then while we 
get started, we do the whole time-consuming process of coming 
to the--historically, the Control Board. The Control Board is 
very adult, has realized we should come out of that process, 
and they have--they are now out of that process over $1 
million, but it was the Control Board and it was the Congress 
and it was a long process. While we started with our little 
nibble of the authority, the only authority he did have and as 
we sit here today is the only authority that he does have.
    Ms. Norton. So it has slowed up the process in becoming Y2K 
compliant?
    Ms. Peck. Yes.
    Ms. Norton. My God. And the waiver that is being 
contemplated would be a blanket waiver for her office; is that 
right?
    Ms. Peck. For Y2K only, for----
    Ms. Norton. I mean Y2K.
    Ms. Peck. For time certain of the project.
    Ms. Norton. Another reason why the Control Board should go 
away a year early, because that is what this is a part of; it 
is a part of that statute.
    In terms of ordinary procurement, GSA has been helpful in 
the past. Once you get over this and you do the procurement, is 
the city's procurement system working itself so that it 
procures quickly?
    Ms. Patterson. In hearings that we had just this past week, 
one of the benchmarks for approving a procurement system, a 
procurement had averaged about 6 months, it is now down to 3 
months and shrinking. So that is just one indicator.
    Ms. Norton. That is an important indicator. I don't know 
how long it should take.
    Let me tell you my concern. The reason I know this can be 
waived is that I had a real gun at my head when I asked the 
Congress to waive the District's share of transportation money 
a couple of years ago, and in return, the GAO and the committee 
said, well, you've got to get this work out on the street; and 
it was taking us 2 years, it was winter then spring by the time 
the work was supposed to be out on the street. It was waived, 
and that waiver worked well.
    I think it important that the Council look at whether or 
not such a waiver should obtain for other functions, rather 
than going through this process, and I am very concerned that 
it slowed you up at all; and two, I don't know how to compare 
the 3 months to what it should be someplace else.
    I would ask you also, Council Member Patterson, to make 
comparisons yourself in that score. What we found was that on 
transportation, it should take 45 days to get out into the 
streets and it took the District a couple of years to get out 
into the streets. So the surrounding jurisdictions can perhaps 
be helpful in that regard.
    Let me ask you about how--we have heard about how not 
having a system at all that was functioning has helped this 
process, because you had less connections to make to existing 
technology. Well, let me ask you how putting in a financial 
management system affects this process.
    The District has finally got a sign-off to begin doing that 
out of the last Congress, and of course we read, at least in 
the paper, about late payments to some vendors that have come 
back again, but this time because of the technology.
    Could I ask you how putting in a new system that way, a new 
financial management system, has correlated with this work?
    Mr. Williams. Well, I can speak to the financial management 
system. The financial management system itself is Y2K compliant 
so it, in and of itself, would not present a problem. The 
vendor payments are a concern for us, and where I don't think 
they are anywhere near the magnitude that has been portrayed in 
the press, it is a very important concern; because we fought 
long and hard to restore the faith and credit of the District 
government, and we are not going to allow ourselves to slide 
back anywhere near where we were.
    We are asking for all of our agencies, as we speak, to come 
forward with us. This will be available to the Council, the 
Authority, the Congress, the public, anybody who wants it, an 
ongoing report, a detailed report of where we stand with our 
vendor payments so that we have acknowledged them, and we can 
compare them where we are today with where we were last year, 
according to the projection, attract the number of calls that 
are coming into the vendor information center that we started a 
couple of years ago to see, you know, where we are with these 
problems and proactively address these problems to see that the 
agencies are moving more aggressively than some of them have 
been in finishing some of the reengineering to make this system 
work, in finishing some of the interface connections to make 
the thing work.
    We are cooperating with Dick Fite to see that we have 
connected with this new procurement system that is coming on 
line, in short, to see that all of these obligations of the 
system, the reason why we put the system in, are satisfied, and 
I am confident that with this concerted effort, we are going to 
realize the benefit that we long intended in this system, which 
is a streamlined process, actually better service to the 
vendors, and I hope within 3 months on every desk, in every 
agency, executive information on a real-time basis of where we 
stand with the budget.
    I am personally going to be sitting in on 6, 7 hours of 
training on the financial management system, as Mayor, and 
every agency head and program manager is going to be there with 
me. They are going to need to tell me why.
    Ms. Norton. Well, Ms. Peck, the Mayor says that the 
financial management system is certainly Y2K compliant, and 
that is one headache you don't have to have. Have you found 
that interfacing with that system has created a set of 
challenges of its own?
    Ms. Peck. The principal interfaces with our caps system----
    Ms. Norton. I can't hear you.
    Ms. Peck. Our principal interface is with the cap system 
and with external systems, and there has--there certainly had 
to have been individual arrangements made for those external 
interfaces. But the principal internal interface works fine as 
well.
    Ms. Norton. I am not sure when people say ``by the end of 
the year'' whether they mean October, the end of the fiscal 
year, or December 31st.
    Ms. Peck. Our meaning is always December 31st in these 
conversations.
    Ms. Norton. Finally, just let me say again for purposes of 
perspective, when I look at Mr. Brock's recommendations, which 
is one way to zero in on whether or not there is a great deal 
of work to be done, or particularly new work that has to be 
begun, I noticed that there is not the usual long list of GAO 
recommendations. That also should give us some comfort. I just 
want to note for the record how these recommendations are 
framed and, I think, fairly framed.
    In the first line, I am quoting from page 8, that the 
District placed increased emphasis on--obviously the District 
is already emphasizing continuity of contingency plans and the 
rest.
    Second, efforts to address--must have continued top-level 
attention, which must mean they are already receiving that 
attention, that the stakeholders must participate in making 
critical decisions. That, no one doubts.
    Going on to page 9, they must continue to provide 
resources, you have done that; and this morning I have 
announced, as well, that the Clinton administration is 
providing additional resources to the tune of approximately $63 
million and finally taken the action necessary to eliminate 
obstacles, and of course that has been most of what your 
testimony has been about.
    I mean, am I justified in drawing the conclusions that I 
have drawn from your recommendations, Mr. Brock?
    Mr. Brock. That is correct. We believe that the District 
is, in fact, carrying out the activities that we recommend.
    On the contingency plans--and I want to bring up this risk 
of failure again--the only reason you ever develop a 
contingency plan is, you have to assume that there is an 
opportunity for failure, and we would recommend that these be 
done as early as possible so that as risks are being able to be 
assessed, later on, when there is more information, that those 
can be factored into the plans and refined as necessary. 
Further, so that the top managers, many of whom are sitting at 
this table, have an opportunity to review those plans which are 
being developed in the business areas, so that the Mayor and 
the Council and the Control Board can look at them across the 
full range of city activities and say, yes, these are 
reasonable.
    As you mentioned, it is apparent from the hearing today 
that there is top-level attention. This needs to continue; it 
shouldn't slide off, it shouldn't be diverted. We are obviously 
hopeful that that will occur and that the resources and the 
barriers that have been identified today will continue to be 
removed, as they may act as an impediment to future correction.
    Ms. Norton. Thank you, Mr. Brock.
    And thank you, Mr. Chairman.
    Mr. Davis. Well, thank you all. Without objection, all 
written statements submitted by witnesses will be made part of 
the permanent record. The record will remain open for 10 days, 
and the subcommittee will continue to work with all interested 
parties to achieve our objective.
    And these proceedings are adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
